No. 21CERTIFICATE OF COMPLIANCE
MICHAEL ANTHONY CASILLAS,
Petitioner,
v.
STATE OF MINNESOTA,
Respondent.
As required by Supreme Court Rule 33.1(h), I certify that the petition
for a writ of certiorari contains 6,559 words, excluding the parts of the
petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 12, 2021
/s/ John Arechigo
John Thomas Arechigo
Counsel of Record
ARECHIGO & STOKKA, P.A
332 Minnesota Street
Suite W1080
St. Paul, MN 55101
651-222-6603
john@arechigo-stokka.com
Counsel for Petitioner

